APPENDIX A, EIGHTH CIRCUIT OPINION
United States Court of Appeals
For the Eighth Circuit
___________________________
No. 18-1324
___________________________
GREGORY CLARK
Plaintiff – Appellant,
v.
AUSTIN CLARK, DEPUTY
in his individual capacity only,
Defendant – Appellee.
____________
June 13, 2019
____________
Appeal from United States District Court
for the Eastern District of Missouri - St. Louis
____________
Before SMITH, Chief Judge, COLLOTON, and
ERICKSON, Circuit Judges
____________
ERICKSON, Circuit Judge

App. 1

On January 25, 2016, Ste. Genevieve County
Deputies Austin Clark (“Deputy Clark”) and Matthew
Ballew responded to a 9-1-1 report of gunshots from
the vicinity of a rest area. When they arrived at the
rest stop to investigate, the officers encountered
Gregory Clark (“Gregory”) seated at a table adjacent
to the building. After calling in Gregory’s
identification, a brief, somewhat adversarial
discussion about Gregory’s race ensued. Gregory
drove away in his vehicle after the officers went inside
the building to continue their investigation. The
officers then followed Gregory for approximately 19
miles on the highway, at which point Gregory stopped
his vehicle on an exit ramp. After further discussion
and investigation, Gregory was allowed to leave.
Gregory filed this action against Deputy Clark,
alleging constitutional violations under the First
Amendment, Fourth Amendment, and the Equal
Protection Clause of the Fourteenth Amendment. The
district court1 granted summary judgment in favor of
Deputy Clark on all claims on the basis of qualified
immunity. We affirm.
I. Background
On the afternoon of January 25, 2016, the
principal of Bloomsdale Elementary School called 9-11 and reported gunshots coming from the direction of
the nearby woods. Approximately 12-15 minutes later,
Ste. Genevieve County Deputies Clark and Ballew
arrived at a rest area located about 150 yards from the
school.

The Honorable Audrey G. Fleissig, United States District Judge
for the Eastern District of Missouri.
1

App. 2

Appellant Gregory Clark was the only person at
the rest area at the time. Gregory was talking on his
phone at a table when Deputy Clark and another
officer approached him (not in uniform, but with
badges and sidearms). Assuming they were police
officers, Gregory voluntarily handed the officers his
driver’s license, his retired military identification, and
his concealed carry permit. Gregory informed the
officers that he was armed. The officers asked Gregory
whether he had heard “anything” or any “gunfire.”
Gregory said that he had not. The officers then asked
Gregory where he was going. He responded that he
was on his way to Chicago. Deputy Clark ran
Gregory’s identification, which came back clean.
When Gregory inquired as to the reason his
information had been run, Deputy Clark replied that
his “boss likes to know who he is talking to.” Gregory
followed up by asking if “[Deputy Clark would] have
done that to anyone else.” Gregory admits that his
question was directed at whether he was being
subjected to racial profiling. Deputy Clark responded
angrily by saying “don’t play the race card with me.”
Without any further discussion, Deputy Clark handed
the three cards back to Gregory and ended the
encounter.
The police officers searched for a suspect inside
the building, but found no one. When they came back
out of the building, they saw Gregory driving away.
The officers followed him onto the highway heading
northbound toward Chicago. Gregory noticed the
officers following him. He made a U-turn about two
miles later, trying to avoid them because he “didn’t
know what could happen” and “was in fear of [his]
life.” The officers continued to follow Gregory.
App. 3

As the officers were following Gregory, Deputy
Clark observed Gregory making “exaggerated
movements,” leaning toward the passenger seat and
center console. Because Gregory’s vehicle had heavily
tinted rear windows, it was difficult to see exactly
what Gregory was doing inside the car. After driving
approximately three to five more miles, Gregory
spotted several more police cars in the area so he
turned on his hazard lights and pulled off the highway
onto an exit ramp.
After stopping his vehicle, Gregory put both
hands outside the driver’s side window. Deputy Clark
and two other officers approached the vehicle with
guns drawn in the “low ready” position. Deputy Clark
then raised his gun and ordered Gregory out of the
vehicle. Gregory complied. Deputy Clark patted
Gregory down and another officer moved him away
from the vehicle. Deputy Clark began searching inside
the vehicle. Gregory told Deputy Clark that the gun
he had told them about at the rest area was in the
center console. When Deputy Clark retrieved the gun,
he noticed it was cold and missing two bullets.
Deputy Clark questioned Gregory about why
the gun was missing two bullets. Gregory indicated
that he had not fired the weapon in years and could
not explain the two missing rounds. During this
conversation, another officer examined the gun and
verified that it had not been fired recently. The gun’s
serial number was run by dispatch. When it came
back as stolen, Gregory was handcuffed. Further
inquiry revealed that Gregory was the person who had
mistakenly reported the gun as stolen when he had
merely misplaced it, at which point the officers
App. 4

remaining at the scene removed the handcuffs,
returned Gregory’s gun and told Gregory he was free
to leave.
Gregory sued Deputy Clark, alleging: (1) he was
unlawfully seized when Deputy Clark detained him at
the rest area while running his identification; (2) a
second unlawful seizure occurred when Deputy Clark
detained him on the highway; (3) Deputy Clark used
excessive force when he pointed his gun after he
voluntarily pulled over; (4) the vehicle search was
unconstitutional; (5) the theft of two bullets
constituted a substantive due process violation; (6) the
entire detention and inquiry at the rest area was
based solely on race and violated the equal protection
clause; and (7) the entire course of events that took
place after inquiring whether he was being singled out
because of his race was in retaliation for exercising his
First Amendment rights. Deputy Clark successfully
moved for summary judgment on all counts. Gregory
now appeals the district court’s ruling on claims (1),
(2), (3), (6) and (7).
II. Discussion
We review the grant of summary judgment on
the basis of qualified immunity de novo, viewing the
evidence in the light most favorable to the nonmoving
party. Peterson v. Kopp, 754 F.3d 594, 598 (8th Cir.
2014). Qualified immunity protects government
officials “from liability for civil damages insofar as
their conduct does not violate clearly established
statutory or constitutional rights of which a
reasonable person would have known.” Pearson v.
Callahan, 555 U.S. 223, 231, 129 S. Ct. 808, 172
App. 5

L.Ed.2d 565 (2009) (quoting Harlow v. Fitzgerald, 457
U.S. 800, 818, 102 S. Ct. 2727, 73 L.Ed.2d 396 (1982)).
“[O]fficers are entitled to qualified immunity
under § 1983 unless (1) they violated a federal
statutory or constitutional right, and (2) the
unlawfulness of their conduct was clearly established
at the time.” District of Columbia v. Wesby, ––– U.S.
––––, 138 S. Ct. 577, 589, 199 L.Ed.2d 453 (2018)
(internal quotation marks omitted). “For a
constitutional right to be clearly established, its
contours ‘must be sufficiently clear that a reasonable
official would understand that what [the official] is
doing violates that right. This is not to say that an
official action is protected by qualified immunity
unless the very action in question has previously been
held unlawful; but it is to say that in the light of preexisting law the unlawfulness must be apparent.”
Hope v. Pelzer, 536 U.S. 730, 739, 122 S. Ct. 2508, 153
L.Ed.2d 666 (2002) (internal citation omitted)
(quoting Anderson v. Creighton, 483 U.S. 635, 640,
107 S. Ct. 3034, 97 L.Ed.2d 523 (1987)). See also
Malley v. Briggs, 475 U.S. 335, 341, 106 S. Ct. 1092,
89 L.Ed.2d 271 (1986) (“[Qualified immunity] provides
ample protection to all but the plainly incompetent or
those who knowingly violate the law.”).
For Gregory to establish a § 1983 claim for a
Fourth Amendment violation, he must demonstrate a
search or seizure occurred, and the search or seizure
was unreasonable. McCoy v. City of Monticello, 342
F.3d 842, 846 (8th Cir. 2003) (citing Hawkins v. City
of Farmington, 189 F.3d 695, 702 (8th Cir. 1999)).
“Reasonableness of a seizure is determined by the
totality of the circumstances and must be judged from
App. 6

the viewpoint of a reasonable officer on the scene,
irrespective of the officer’s underlying intent or
motivation.” Id. at 848 (citations omitted). If an officer
has reasonable suspicion that a crime has occurred
and a subject has committed it, the officer may detain
the subject while the officer investigates that crime.
Terry v. Ohio, 392 U.S. 1, 24, 88 S. Ct. 1868, 20
L.Ed.2d 889 (1968).

A. Initial Encounter
The initial encounter at the rest stop presents
no colorable claim that Gregory’s Fourth Amendment
rights were violated. “[C]onsensual communications
between officers and citizens[ ] involv[e] no coercion or
restraint of liberty.” Warren v. City of Lincoln, Neb.,
864 F.2d 1436, 1438 (8th Cir. 1989). A consensual
encounter between an officer and a citizen does not
trigger the Fourth Amendment. United States v.
Stewart, 631 F.3d 453, 456 (8th Cir. 2011) (citing
Florida v. Bostick, 501 U.S. 429, 434, 111 S. Ct. 2382,
115 L.Ed.2d 389 (1991)). Here, a consensual encounter
began with Gregory handing over his identification
cards without being asked to do so. This inferred
consent was never explicitly revoked. Gregory never
gave the officers reason to believe that he no longer
wished to engage in the contact. Gregory never asked
for the return of his identification cards or whether he
could leave. Gregory has not pointed to any physical
restraint, blocking action, or other show of authority
that would indicate he was not free to leave. Instead,
Gregory urges us to find he was detained based upon
Deputy Clark’s hostility and angry tone in stating
“don’t play the race card with me.” This alleged
hostility occurred after Deputy Clark had handed
App. 7

back Gregory’s identification cards. Given the timing
of when the statement was made–it was the officer’s
parting words–it is of little weight when analyzing the
totality of the circumstances surrounding the
encounter. Because the entire interaction was
consensual, there was no seizure.
Even if we assume arguendo that the encounter
was not consensual, the officers had a sufficient
reasonable and articulable suspicion that warranted
the intrusion. While a person’s mere presence in a
suspicious location does not, in and of itself, justify a
Terry stop, Johnson v. Phillips, 664 F.3d 232, 237 (8th
Cir. 2011), the court is to “determine whether the facts
collectively provide a basis for reasonable suspicion.”
Stewart, 631 F.3d at 457. Here, the officers were
aware that shots had been fired in the vicinity of the
rest area. Gregory was the only person visible outside
the rest area. Gregory volunteered that he had a
permit to carry a gun and that he actually had one in
his possession.2 Taken in aggregate, these facts would
give an objectively reasonable officer articulable
suspicion to conduct a Terry stop.

B. Second Encounter
Although a number of facts surrounding the
second highway encounter are disputed, Gregory
acknowledged that a “detention did not occur when
[he] first pulled over his car because he pulled over
voluntarily.” (Appellant’s Br. 34). The parties have
The officers likely could have immediately completed their
investigation of Gregory if they would have asked to inspect
Gregory’s gun at the rest area. The fact that they did not do so,
however, does not affect the reasonable suspicion analysis.
2

App. 8

debated extensively whether there was anything
unusual about the manner or speed in which Gregory
left the rest area, or whether there was excessive
movement inside Gregory’s truck while he was
driving, or whether Deputy Clark had the ability to
observe Gregory’s movement inside the truck.
Because Deputy Clark did not conduct a traffic stop of
Gregory’s vehicle, these disputed issues are
insignificant to the particular constitutional issue
before us, and resolution of all of them in Gregory’s
favor would not establish a constitutional violation.
The disputed seizure implicating the Fourth
Amendment occurred when officers, with guns drawn,
ordered Gregory out of his car after he stopped
voluntarily on the exit ramp.
To justify an investigative seizure under Terry
v. Ohio, a “police officer must be able to point to
specific and articulable facts which, taken together
with rational inferences from those facts, reasonably
warrant” the intrusion. 392 U.S. at 21, 88 S. Ct. 1868.
When Gregory stopped his vehicle, Deputy Clark
knew Gregory had a firearm, but was unsure whether
it had been fired recently. After searching the building
and grounds of the rest area and failing to find anyone
else present, Deputy Clark had reason to follow up
with Gregory about inspecting the gun that Gregory
told him he had in his possession. Gregory had
informed the officers that he was traveling to Chicago,
but inexplicably made a U-turn in the opposite
direction while being followed by police. Finally,
Gregory pulled over and put his hands outside the
driver’s side window. While this is entirely consistent
with Gregory’s perspective that he was complying for
his own safety, the act is also unusual and may be
App. 9

indicative of guilty conduct. At the time Gregory
stopped his vehicle, police officers had reasonable and
articulable suspicion that criminal activity might be
afoot.
During the investigative seizure, Deputy Clark
investigated the gun quickly and efficiently, and the
period of detention lasted no longer than necessary to
effectuate the investigation. While Gregory was
handcuffed when the officers received information
that the firearm had been reported stolen, they were
removed as soon as the officers learned that Gregory
was the person who had reported the firearm stolen.
Handcuffing was a reasonable precaution and did not
elevate the Terry stop to an arrest. United States v.
Martinez, 462 F.3d 903, 908 (8th Cir. 2006). The
seizure of Gregory on the highway exit ramp did not
run afoul of the Fourth Amendment and was
reasonably related in scope to the circumstances
which justified the interference.

C. Excessive Force
“The right to be free from excessive force in the
context of an arrest is a clearly established right under
the Fourth Amendment’s prohibition against
unreasonable seizures.” Ngo v. Storlie, 495 F.3d 597,
604 (8th Cir. 2007) (quoting Samuelson v. City of New
Ulm, 455 F.3d 871, 877 (8th Cir. 2006)). “In
determining whether a particular use of force was
excessive, we consider whether it was objectively
reasonable under the circumstances, ‘rely[ing] on the
perspective of a reasonable officer present at the scene
rather than the 20/20 vision of hindsight.’ ” Perry v.
Woodruff County Sheriff Dept., 858 F.3d 1141, 1145
(8th Cir. 2017) (internal quotation marks omitted)
App. 10

(quoting Carpenter v. Gage, 686 F.3d 644, 649 (8th
Cir. 2012)).
We have previously found police officers were
entitled to qualified immunity when they pointed a
gun at a suspect during a pursuit. See Edwards v.
Giles, 51 F.3d 155 (8th Cir. 1995). In Edwards, we held
that the pointing of a gun did not constitute an
assertion of authority for Fourth Amendment
purposes where the display did not cause the suspect
to submit to the police officer’s authority and,
therefore, no seizure occurred. 51 F.3d at 157. Here,
like in Edwards, Gregory submitted to Deputy Clark’s
authority before the gun was drawn.
Gregory relies on cases from this circuit and
other circuits that have found that pointing a gun may
constitute an unconstitutional display of force. E.g.,
Rochell v. City of Springdale Police Dep’t, No. 17-3608,
2019 WL 1859237 (8th Cir. Apr. 25, 2019); Wilson v.
Lamp, 901 F.3d 981 (8th Cir. 2018); Mlodzinski v.
Lewis, 648 F.3d 24, 38 (1st Cir. 2011); Holland ex rel.
Overdorff v. Harrington, 268 F.3d 1179, 1192-93 (10th
Cir. 2001). Those cases are not analogous to the
circumstances confronting the officers in this case.
They involve incidents where guns were pointed at
suspects for unreasonably long periods of time, well
after the police had taken control of the situation. In
this case, Gregory signaled compliance by putting his
hands out the driver’s side window. A reasonable
officer was justified in believing the situation was not
fully under control until Gregory had been removed
from the vehicle, patted down, and restrained. When
Gregory stopped his vehicle, officers knew Gregory
had a weapon, were aware that he had been the only
App. 11

identified person present in an area where shots had
reportedly been fired, and had reason to believe he
might be a suspect attempting to evade capture. *980
Under these circumstances, pointing a firearm at
Gregory for a few seconds while removing him from
his vehicle did not constitute excessive force, and did
not violate the Fourth Amendment.

D. Equal Protection
To prove an equal protection claim in the
context of a police interaction, Gregory must prove
that the officer exercised his discretion to enforce a
law solely on the basis of race. Johnson v. Crooks, 326
F.3d 995, 999-1000 (8th Cir. 2003). This requires a
showing of both discriminatory purpose and
discriminatory effect. Id. (citing United States v.
Armstrong, 517 U.S. 456, 465, 116 S. Ct. 1480, 134
L.Ed.2d 687 (1996)). “[E]ncounters with officers may
violate the Equal Protection Clause when initiated
solely based on racial considerations.” United States
v. Frazier, 408 F.3d 1102, 1108 (8th Cir. 2005) (citing
United States v. Woods, 213 F.3d 1021, 1022-23 (8th
Cir. 2000)). “When the claim is selective enforcement
of the traffic laws or a racially-motivated arrest, the
plaintiff must normally prove that similarly situated
individuals were not stopped or arrested in order to
show the requisite discriminatory effect and purpose.”
Johnson, 326 F.3d at 1000 (citing Chavez v. Ill. State
Police, 251 F.3d 612, 634-48 (7th Cir. 2001);
Gardenhire v. Schubert, 205 F.3d 303, 319 (6th Cir.
2000)).
Gregory has not provided sufficient evidence to
raise a fact question about whether he was singled out
for investigation because of his race. He has presented
App. 12

no evidence to establish that similarly situated
individuals were not stopped or investigated. He has
not identified any “affirmative evidence from which a
jury could find that [Gregory] has carried his ...
burden of proving the pertinent motive.” Crawford-El
v. Britton, 523 U.S. 574, 600, 118 S. Ct. 1584, 140
L.Ed.2d 759 (1998) (citing Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 256-57, 106 S. Ct. 2505, 91 L.Ed.2d
202 (1986)). While the statement “don’t play the race
card with me” may have been hostile and
unprofessional, it does not, alone, carry the burden of
showing racial discrimination on Deputy Clark’s part–
particularly so when the alleged discriminatory acts
are consistent with legitimate police work.

E. First Amendment Retaliation
To properly state a claim for First Amendment
retaliation, Gregory is required to show “a causal
connection between a defendant’s retaliatory animus
and [his] subsequent injury.” Osborne v. Grussing,
477 F.3d 1002, 1005 (8th Cir. 2007) (quoting Hartman
v. Moore, 547 U.S. 250, 259, 126 S. Ct. 1695, 164
L.Ed.2d 441 (2006)). As discussed above, the initial
encounter was consensual and Deputy Clark had
sufficient reasonable and articulable suspicion to
conduct an investigative seizure of Gregory. In light of
Deputy Clark’s legitimate motive to investigate, Clark
has failed to draw the requisite causal connection to
state a First Amendment retaliation claim.
III. Conclusion
For the foregoing reasons, we affirm the district
court’s grant of summary judgment.
App. 13

SMITH, Chief Judge, concurring.
I concur in the court’s holding that the district
court properly granted summary judgment in favor of
Deputy Clark, as he lacked “fair notice” of his
conduct’s unlawfulness. See Kisela v. Hughes, –––
U.S. ––––, 138 S. Ct. 1148, 1158, 200 L.Ed.2d 449
(2018) (per curiam) (explaining that qualified
immunity protects officers lacking “fair notice” of their
conduct’s unconstitutionality). I write separately to
express my disagreement with the court’s conclusion
that Deputy Clark had reasonable suspicion to stop
Gregory after Gregory departed from the rest area.
While Deputy Clark may have had reasonable
suspicion to stop Gregory at the rest area had Gregory
not consented to a search, that reasonable suspicion
did not extend beyond that interaction.
“A seizure may be accomplished either by
physical restraint or by sufficient show of authority.
The Terry seizure requirement is fulfilled when it is
apparent from the circumstances that the individual
was not free to ignore the officer and proceed on his
way.” United States v. Palmer, 603 F.2d 1286, 1288–
89 (8th Cir. 1979) (cleaned up).
[I]n determining whether [a] seizure and
search were unreasonable, this court looks at
whether the officer’s action was justified at its
inception, and whether it was reasonably
related in scope to the circumstances which
justified the interference in the first place. The
search must be strictly tied to and justified by
the circumstances which rendered its initiation
permissible.
App. 14

Wilson v. Lamp, 901 F.3d 981, 986 (8th Cir. 2018)
(cleaned up).
The court identifies (1) Deputy Clark knowing
that Gregory had a gun and his desire to inspect that
gun, (2) Gregory making a U-turn on the highway and,
(3) Gregory pulling over and putting his hands out his
truck’s window as supporting Deputy Clark’s
reasonable suspicion.
However, Gregory’s U-turn and surrender are
particularly unsatisfactory bases for reasonable
suspicion. By leaving Gregory without instructions to
remain and moving to inspect the restrooms, Deputy
Clark objectively indicated that the encounter had
ended. Gregory left the rest area, reasonably believing
his interaction with Deputy Clark had ended.
Likewise, after the encounter had ended, Gregory
could legitimately avoid further interactions with
police. See Florida v. Royer, 460 U.S. 491, 498, 103 S.
Ct. 1319, 75 L.Ed.2d 229 (1983); see also Illinois v.
Wardlow, 528 U.S. 119, 131, 120 S. Ct. 673, 145
L.Ed.2d 570 (2000) (Stevens, J., concurring in part
and dissenting in part) (explaining that “[f]light to
escape police detection ... may have an entirely
innocent motivation”). Nevertheless, Deputy Clark
followed Gregory for 19 miles—including across an
overpass after Gregory made a U-turn. Shortly after
making the U-turn, Gregory noticed “police cars all
over the area,” Appellant’s Br. at 12, and observed
police cars “positioned” at an exit he was nearing,
Mem. & Order at 3, Gregory Clark v. Austin Clark,
No. 1:16-cv-00094-AGF, 2018 WL 513590 (E.D. Mo.
Jan. 23, 2018), ECF No. 62; see also Gregory Clark
Depo. at 138, Gregory Clark v. Austin Clark, No. 1:16App. 15

cv-00094-AGF (E.D. Mo. Oct. 23, 2017), ECF No. 49-5
(testifying that he pulled over after observing police
cars in front of him on the exit overpass while being
followed by Deputy Clark). Afraid, and sensing from
this “show of authority” that he “was not free to ...
proceed on his way,” Palmer, 603 F.2d at 1289,
Gregory eventually stopped at an exit. Many
reasonable people traveling between states would be
unnerved by having local police follow and surround
them on the highway. See United States v. Peters, 10
F.3d 1517, 1522 (10th Cir. 1993) (explaining that a
nervous reaction to being followed and stared at by an
officer after having already been searched and
released was insufficient to support finding
reasonable suspicion). This does not resemble a
typical stop by police for a driving violation.
Nervousness in this scenario could easily reflect a
cautious consciousness of an imminent confrontation
rather than a guilty conscience. Furthermore,
“[r]easonable suspicion cannot be manufactured by
the police themselves.” United States v. Yousif, 308
F.3d 820, 829 (8th Cir. 2002).
Without Deputy Clark’s interaction with
Gregory at the rest area, Gregory would have been
just another traveler. Therefore, for the stop at the
exit to have been reasonable, the circumstances at the
rest area must have “justified [Deputy Clark’s]
interference” with Clark, because a “search must be
strictly tied to and justified by the circumstances
which rendered its initiation permissible.” See Wilson,
901 F.3d at 986 (internal quotations removed). While
I agree that Deputy Clark likely had reasonable
suspicion for a stop at the rest area, the question is
close. Gregory was present near the crime scene, and,
App. 16

being armed, had had the ability to commit the crime.
However, as the court notes, Gregory cooperated with
police at the rest area, answering officers’ questions
and voluntarily providing them with his military
identification
and
concealed
carry
permit.
Furthermore, the caller from the school had not
provided a description of the alleged shooter, and
Gregory was not engaging in any suspicious activity
when approached by Deputy Clark. C.f. United States
v. Quinn, 812 F.3d 694 (8th Cir. 2016) (finding
reasonable suspicion where suspect was not only one
of the only people in proximity to the crime scene but
also matched a description of the perpetrator and
acted suspiciously when approached by police).
Considering the closeness of the reasonable suspicion
question at the rest stop, Deputy Clark’s argument
that Gregory’s behavior on the highway augmented
the suspicion he developed at the rest area is weak.
Gregory’s behavior on the highway was a natural
reaction to being followed and surrounded by police,
not behavior likely indicative of a guilty conscience or
criminal activity. With no relevant additional
information to suggest that Gregory had in fact been
the shooter at the rest area, Deputy Clark’s decision
to stop Gregory at the exit after following him for 19
miles was not “reasonably related in scope to the
circumstances which justified the interference in the
first place,” or “strictly tied” to those circumstances.
See Wilson, 901 F.3d at 986 (internal quotations
omitted).
Neither does Deputy Clark’s desire “to follow up
with Gregory about inspecting the gun,” justify the
stop. See supra Part II.B. The Fourth Amendment’s
protections are not so easily undermined by second
App. 17

thoughts. See United States v. Garcia, 23 F.3d 1331,
1335–36 (8th Cir. 1994) (finding officer lacked
reasonable suspicion for a second stop where officer
released suspects after deciding not to hold them
pending the arrival of backup).
Considering the totality of the circumstances, I
conclude that Deputy Clark lacked reasonable
suspicion for the exit stop and therefore violated
Gregory’s Fourth Amendment rights.
Nevertheless, that right was not established in
a “particularized sense,” as of January 2016. See
Mettler v. Whitledge, 165 F.3d 1197, 1203 (8th Cir.
1999). For the reasons stated by the court in Part II.B.
of this opinion, Deputy Clark could have reasonably
believed that he had the authority to conduct the stop
at the exit. Consequently, the district court properly
granted summary judgment in Deputy Clark’s favor.

App. 18

APPENDIX B, DISTRICT COURT OPINION
United States District Court
Eastern District of Missouri
Eastern Division
___________________________
No. 1:16-CV-00094 AGF
___________________________
GREGORY CLARK,
Plaintiff,
v.
AUSTIN CLARK, DEPUTY,
in his individual capacity only,
Defendant.
____________
January 23, 2018
____________
Audrey G. Fleissig, United States District Judge
MEMORANDUM AND ORDER
This action, brought by Plaintiff Gregory Clark
under 42 U.S.C. § 1983 against Defendant Austin
Clark in his individual capacity as deputy sheriff of
Ste. Genevieve County, Missouri, is before the Court
on Defendant’s motion for summary judgment.
Although this is a close case in some respects, for the
reasons set forth below, the motion will be granted as
to all claims.
App. 19

BACKGROUND
The record establishes the following for
purposes of the motion before the Court. In the early
afternoon of January 25, 2016, a 911 call was received
by the Ste. Genevieve County Sheriff’s Department
from the Bloomsdale Elementary School about
gunshots fired near the school coming from the area of
a nearby highway rest stop or adjacent woods.
Defendant and Detective Mathew Ballew were driving
in the vicinity of the rest stop when the police
dispatcher radioed them to investigate the complaint.
Specifically, they were advised, “There is a report of
shots fired near the rest stop, possibly in the wooded
area between the rest stop and the elementary school.”
The officers drove to the rest stop, arriving
there four to ten minutes after receiving the call. They
parked, and saw three vehicles and one person in the
parking area. The person was Plaintiff, who is
African–American. He was seated at a picnic table
near his pick-up truck at the end of the parking area
that was near the woodland. The officers approached
Plaintiff and asked him if he had heard any shots, and
Plaintiff responded that he had not. Plaintiff told the
officers that he was armed, and immediately gave the
officers, without being asked, his concealed carry
permit, his driver’s license, and his military
identification card. He told the officers that he was on
his way from Memphis to Chicago.
Defendant “ran” Plaintiff’s identification, that
is, he called the information in to the Sheriff’s
Department to check for warrants or criminal history,
and was told that Plaintiff was “clean.” This process
took one to two minutes. Plaintiff asked Defendant
App. 20

why he had “run” him and Defendant responded that
his boss liked to know to whom he was talking.
Plaintiff said words to the effect of, “If I were someone
else you wouldn’t have run me,” and testified that
Defendant responded, in an angry tone, “Don’t pull the
race card on me.”
Defendant and Ballew walked away to the
building in the rest area that contained a rest room.
When the officers were walking to the building,
Plaintiff went to the back of his vehicle, got out a
bottle of water, got into the vehicle, took his weapon
off his side and placed it in the center console. He then
drove out of the rest area onto the highway heading
north. The officers testified that they believed
Plaintiff left to avoid further questioning. They
returned to their car and followed Plaintiff, driving
close behind him. Defendant testified by deposition
that he observed Plaintiff moving about in the front
seat of the pick-up, for a “long duration,” moving
toward the passenger seat and center console. ECF
No. 42–2 at 28–29. Although Plaintiff does not deny
that he was moving in his truck, he maintains that his
back window was tinted, such that Defendant could
not have observed this. In support, Plaintiff submits a
photograph of the back window of the pick-up. The
Court is unable to discern from the photograph
whether someone driving behind the pick-up would
have been able to observe movement in the front seat.
But the Court does rely on this disputed fact in
reaching its determination below.
Approximately two miles north of the rest area,
Plaintiff exited and crossed over the highway, and
reentered the highway travelling south. Plaintiff
App. 21

testified that he did so to avoid the police. Defendant
called for other officers in marked patrol cars to come
and pull Plaintiff over. After driving about 19 miles,
with Defendant and Ballew following him, Plaintiff
neared an exit where other police cars were
positioned. Plaintiff testified as follows: “I decided to
pull over once I seen there were several police cars all
over the area, I decided to pull over on my own. No one
pulled me over.” ECF No. 42–1 at 22. Upon pulling
over, Plaintiff parked his pick-up truck on the exit
ramp and put both his hands out the window of his
vehicle.
Defendant and about four other officers
approached Plaintiff’s truck with guns drawn, and
told him to get out of the vehicle. Plaintiff did so.
Defendant’s bodycam recording shows that as he was
approaching Plaintiff’s vehicle, Defendant’s gun was
in a “low ready” position, but as he got closer, he raised
his arm so that the gun was pointed at Plaintiff.
Defendant and/or other officers searched Plaintiff and
ordered him to stand away from his vehicle. Plaintiff
testified that after he was patted down, Defendant
“immediately grabbed the keys” from Plaintiff’s
vehicle, went to the back of the truck, opened the
tailgate, and started searching the back of the truck.
EFC No. 42–1 at 25. Defendant asked Plaintiff where
his gun was located. Plaintiff stated that it was in the
console, and Defendant found it there. Defendant’s
bodycam recording reflects that Defendant asked
Plaintiff how many rounds he had in his gun and
Plaintiff responded that he didn’t know as he had not
fired the gun in years. Defendant determined that
Plaintiff’s gun was missing two bullets. When asked
about the two missing bullets, Plaintiff said he
App. 22

couldn’t explain it, and repeated that he had not fired
the gun in several years.
Defendant asserts that he did not search the
cargo area of the pick-up, and relies on footage from
his bodycam recording to support this assertion.
Based on its viewing of the recording, the Court
concludes that it refutes Plaintiff’s rendition of the
facts on this matter—the recording shows the
happenings during the time frame in which Plaintiff
alleges Defendant searched the cargo area, and it does
not depict such a search by Defendant, or any other
officer, then, or at any other time.
A deputy at the scene called the gun’s serial
number into dispatch and a report came back that the
gun was stolen. Plaintiff explained to the officers that
he had reported the gun as stolen when he had left the
military and it was lost in transit, but the gun was
found a few days later and he filed a follow-up report.
Plaintiff was then handcuffed on Defendant’s orders.
Defendant and Ballew left the scene, and a few
minutes later, the other officers at the scene received
confirmation that the gun had been reported as found,
and that it did belong to Plaintiff. At some point, an
officer smelled Plaintiff’s gun and determined it had
not been shot recently. Plaintiff was released.
Approximately 20 minutes elapsed from when
Plaintiff was patted down until he was released.
According to Plaintiff, when he got back in his vehicle,
he drove a few miles to a gas station, and there
checked his gun and determined that there were two
bullets less in the gun than had been there at the
beginning of the incident.
App. 23

In his seven-count amended complaint,
Plaintiff asserts claims for unconstitutional seizure in
detaining Plaintiff at the rest stop while running an
identification check on him, in that Plaintiff was not
free to leave because Defendant had Plaintiff’s permit,
license, and identification card (Count I);
unconstitutional seizure at the highway exit ramp
(Count II); excessive use of force in approaching
Plaintiff with a drawn gun at the exit ramp (Count
III)3 ; unconstitutional search of the cargo area of
Plaintiff’s vehicle at the exit ramp (Count IV); and
theft of two bullets, in violation of Plaintiff’s
substantive due process rights (Count V). Plaintiff
also asserts an equal protection claim, alleging that
Defendant’s first detention of Plaintiff at the rest area,
which led to the subsequent events, was based on
Plaintiff’s race (Count VI); and a First Amendment
free speech claim, alleging that Defendant called for
additional police cars, detained Plaintiff at the exit
ramp, used excessive force, conducted the cargo area
search, and stole the bullets all because Plaintiff
suggested at the rest stop that Defendant would not
have detained someone who was not African–
American (Count VII). In each count, Plaintiff seeks
compensatory and punitive damages.
ARGUMENTS OF THE PARTIES
In support of his motion for summary
judgment, Defendant argues that he is entitled to
qualified immunity on all counts. More specifically, he
argues that his conduct was objectively reasonable
under the circumstances when he ran Plaintiff’s
Plaintiff has withdrawn his claim that having him handcuffed
was also an unconstitutional use of force.
3

App. 24

identification information at the rest stop. Defendant
maintains that Plaintiff was “the author of his own
detention” by voluntarily giving Defendant the
permit, license, and identification that rendered him
unfree to leave. Defendant argues that, moreover,
Defendant had objectively reasonable grounds to
detain Plaintiff for the one minute it took to run the
identification information because “Plaintiff’s conduct
created reasonable suspicion that Plaintiff could have
or was about to commit a crime” in light of the “shots
fired” dispatch moments earlier. ECF No. 42 at 9.
Thus, according to Defendant, the encounter at the
rest area was a permissible investigatory stop under
Terry v. Ohio, 392 U.S. 1 (1968).
Defendant argues that the totality of
circumstances provided him not only reasonable
suspicion, but also probable cause that Plaintiff was
involved in the reported shots fired, thereby justifying
the detainment on the exit ramp. Defendant points to
the facts that Plaintiff was the only person visibly
present at the rest stop when Defendant and Ballew
arrived to investigate the shots fired call, Plaintiff was
armed, he was defensive about his information being
run, he immediately left the rest stop when the
deputies walked away to continue the investigation,
he appeared to be moving something in the passenger
seat or center console as he was driving, and he
changed directions on the highway.
Defendant next argues that he is entitled to
qualified immunity with respect to the excessive force
claim, as approaching Plaintiff’s vehicle with his gun
drawn was objectively reasonable under the
circumstances. With respect to Plaintiff’s remaining
App. 25

claims, Defendant argues that his bodycam recording
shows that he did not search the cargo area of Plaintiff
truck, and in any event, probable cause existed for this
search; the theft of two bullets, even if true, does not
state a substantive due process claim, which requires
conscience-shocking conduct; and Plaintiff has failed
to provide any evidence showing a discriminatory
purpose in Defendant’s conduct, or that any of
Defendant’s actions were motivated by Plaintiff’s
suggestion at the rest area that Defendant “ran”
Plaintiff’s information due to Plaintiff’s race.
In response to the motion for summary
judgment, Plaintiff essentially reasserts the facts and
claims in his amended complaint. With respect to
Count I, he argues that the circumstances did not
provide any articulable facts to support a reasonable
suspicion that Plaintiff had fired the shots near the
school that would have justified a Terry stop, and
running Plaintiff’s identification, however briefly that
took. With respect to Count II, Plaintiff argues that
Defendant had no reasonable grounds to stop and
detain Plaintiff at the exit ramp and that Defendant,
therefore, seized Plaintiff in violation of the Fourth
Amendment. Plaintiff maintains that none of the facts
relied on by Defendant (such as Plaintiff leaving the
rest area, changing direction on the highway, and
possessing a gun), separately or in combination, were
sufficient to give Defendant a reasonable belief that
Plaintiff committed a crime or was dangerous.4

In response to the motion for summary judgment, Plaintiff does
not argue that the duration of the stop exceeded the time
necessary to investigate the matter – he asserts that there was
no probable cause or reasonable suspicion for the stop. With
4

App. 26

Plaintiff maintains that approaching him with
a gun pointed at him was also unreasonable under the
circumstances, and thus constituted excessive force
under the Fourth Amendment. Plaintiff acknowledges
that the Eighth Circuit has not ruled directly on
whether pointing a gun at a person can be excessive
force, but he points to other circuits that have so held,
and argues that the lack of authority from the Eighth
Circuit does not mean that a clearly established right
is not involved, for purposes of qualified immunity.
Plaintiff argues that no reasonable officer could have
believed that pointing a gun at Plaintiff under the
circumstances presented here, was constitutional.
Plaintiff next addresses the claim that
Defendant’s search of the cargo area of the pick-up
truck was unconstitutional. He maintains that a fact
question is presented as to whether the search
occurred, and that no circumstances justified this
search. With respect to the substantive due process
claim involving the alleged theft of two bullets,
Plaintiff argues that the theft shocks the conscience
because it implied an attempt to frame Defendant for
the shots fired near the school, something he did not
do.
Plaintiff maintains that his equal protection
claim survives summary judgement because the
statement by Defendant at the rest stop, “don’t play
the race card with me,” said an angry tone, shows
respect to the duration, the Court notes that at least half the time
of the detention related to the report that the gun was stolen, and
the investigation and resolution of that report. Plaintiff has
abandoned his related claim that handcuffing him after receipt
of the report that the gun was stoles was excessive force.

App. 27

animus over race. Lastly, Plaintiff argues that his
criticism of Defendant at the rest step for “running”
Plaintiff’s identification (“If I were someone else you
wouldn’t have run me would you have was run me?”)
was protected speech, and the connection between
that criticism and Defendant’s subsequent actions
challenged in this case is a question for the jury.
DISCUSSION
Summary Judgment Standard
Federal Rules of Civil Procedure Rule 56(a)
provides that summary judgment shall be granted “if
the movant shows that there is no genuine issue as to
any material fact and the movant is entitled to
judgment as a matter of law.” In ruling on a motion
for summary judgment, a court is required to view the
facts in the light most favorable to the non-moving
party. Sokol & Assocs., Inc. v. Techsonic Indus., Inc.,
495 F.3d 605, 610 (8th Cir. 2007). “[T]he burden of
demonstrating that there are no genuine issues of
material fact rests on the moving party,” and the court
must view “the evidence and the inferences that may
be reasonably drawn [therefrom] in the light most
favorable to the non-moving party.” Allard v. Baldwin,
779 F.3d 768, 771 (8th Cir. 2015). “The nonmoving
may not rely on allegations or denials, but must
demonstrate the existence of specific facts that create
a genuine issue for trial....The nonmoving party’s
allegations must be supported by sufficient probative
evidence that would permit a finding in his favor on
more than mere speculation.” Mann v. Yarnell, 497
F.3d 822, 825 (8th Cir. 2007) (citations omitted).
Qualified Immunity
App. 28

The doctrine of qualified immunity
shields officials from civil liability so long as
their conduct ‘does not violate clearly
established...constitutional rights of which a
reasonable person would have known. he
dispositive inquiry in determining whether a
right is clearly established is whether it would
be clear to a reasonable officer that his conduct
was unlawful in the situation he confronted.
The qualified immunity analysis thus is limited
to the facts that were knowable to the
defendant officers at the time they engaged in
the conduct in question. Facts an officer learns
after the incident ends—whether those facts
would support granting immunity or denying
it—are not relevant.

Hernandez v. Mesa, 137 S. Ct. 2003, 2007 (2017)
(citations omitted).
[O]fficers are entitled to qualified
immunity under § 1983 unless (1) they violated
a federal statutory or constitutional right, and
(2) the unlawfulness of their conduct was
clearly established at the time. “Clearly
established” means that, at the time of the
officer’s conduct, the law was ‘sufficiently clear
that every reasonable official would understand
that what he is doing is unlawful. In other
words, existing law must have placed the
constitutionality of the officer’s conduct beyond
debate.

Dist. of Columbia, v. Wesby, –––S. Ct. ––––, 2018 WL
491521, at (Jan. 22, 2018) (citations omitted); see also
Solomon v. Petray, 795 F.3d 777, 786 (8th Cir. 2015).
App. 29

To be clearly established, a legal principle must
have a sufficiently clear foundation in thenexisting precedent. The rule must be settled
law, which means it is dictated by controlling
authority or a robust consensus of cases of
persuasive authority.... The clearly established
standard also requires that the legal principle
clearly prohibit the officer’s conduct in the
particular circumstances before him. The rule’s
contours must be so well defined that it is clear
to a reasonable officer that his conduct was
unlawful in the situation he confronted.

Wesby, 2018 WL 491521, at (citations omitted). “[I]f a
reasonable officer might not have known for certain
that the conduct was unlawful—then the officer is
immune from liability.” Ziglar v. Abbasi, 137 S. Ct.
1843, 1867 (2017). “Once the predicate facts are
established, the reasonableness of the official’s
conduct under the circumstances is a question of law.”
Tlamka v. Serrell, 244 F.3d 628, 632 (8th Cir. 2001)
(citation omitted).
Encounter at Rest Area
The Court agrees with Defendant that that he
is entitled to qualified immunity on Plaintiff’s claim
that Plaintiff was subject to an unconstitutional
seizure at the rest area. The evidence, even when
viewed in the light most favorable to Plaintiff, does not
demonstrate the deprivation of a constitutional or
statutory right that was clearly established at the
time of the encounter. Plaintiff claims that he was
detained because he was not free to leave while
Defendant had Plaintiff’s identification items that
Plaintiff gave him.
App. 30

Although the Fourth Amendment
prevents police officers from seizing a person
without a reasonable suspicion of criminal
activity, scrutiny under the amendment is not
triggered by a consensual encounter between
an officer and a citizen. A seizure does not occur
simply because a police officer approaches an
individual and asks a few questions so long as
a reasonable person would feel free to disregard
the police and go about his business. Even when
officers have no basis for suspecting a
particular individual, they may generally ask
the individual questions and request to
examine his or her identification. Only when
the officer, by means of physical force or show
of authority, has in some way restrained the
liberty of a citizen may we conclude that a
seizure has occurred.

United States v. Stewart, 631 F.3d 453, 456 (8th Cir.
2011) (citations omitted). Under the undisputed facts
of this case, no clearly established rights of Plaintiff
were violated at the rest area. Rather it began as a
consensual encounter, during which time Plaintiff
volunteered his identification and concealed carry
permit. Given that Plaintiff admitted he was armed,
and was in the area from which there was a report of
shots fired, the officers reasonably could detain
Plaintiff for the minute or two it took to run an
identification check on him. Thus, Defendant did not
violate Plaintiff’s clearly established rights, nor would
it have been clear to a reasonable officer that what he
was doing was unlawful.
Detention at Exit Ramp
App. 31

As noted above, Plaintiff testified that it was
his own decision to exit the highway when he saw
police cars at the location, and that no one pulled him
over. Thus the Court concludes that no police stop
occurred until the officers approached Plaintiff’s
vehicle with guns drawn and ordered him to exit the
vehicle. The Court further concludes, that this
detention constituted an investigatory, or Terry stop.
An investigatory, or Terry, stop without a warrant is
valid
if police officers have a reasonable and
articulable suspicion that criminal activity may
be afoot. When justifying a particular stop,
police officers must be able to point to specific
and articulable facts which, taken together
with rational inferences from those facts,
reasonably warrant that intrusion. A Terry
stop may turn into an arrest if the stop lasts for
an unreasonably long time or if officers use
unreasonable force.

United States v. Navarrete–Barron, 192 F.3d 786, 790
(8th Cir. 1999) (citation omitted).
Under the circumstances of this case, the Court
concludes that a reasonable officer would not have
known for certain that detaining Plaintiff at this point
in time was unlawful. Although each separate factor
relied upon by Defendant, such as Plaintiff’s presence
at the rest stop, might not have provided Defendant
with a reasonable, articulable suspicion, see, e.g.,
Johnson v. Phillips, 664 F.3d 232, 237 (8th Cir. 2011)
(holding that it was clearly established that a person's
presence in a suspicious location does not, in and of
itself, provide law enforcement with a reasonable,
App. 32

articulable suspicion to justify a Terry stop), taking all
the factors present here together, a reasonable officer
might have concluded that detaining Plaintiff at the
exit ramp was not unlawful. See United States v.
Stewart, 631 F.3d 453, 457 (8th Cir. 2011) (“In
considering the reasonableness of an officer’s
suspicion, [a court] must determine whether the facts
collectively provide a basis for reasonable suspicion,
rather than determine whether each fact separately
establishes such a basis.”).
Again, it is undisputed that Plaintiff was the
only person the officers saw at the rest stop within
minutes of when they received the dispatch of shots
fired near the rest are. Plaintiff admitted he was
armed. When the officers went to check the building
with the restroom, Plaintiff left and got on the
highway. A few miles later, Plaintiff exited and got on
the highway driving the opposite direction from where
he had told the officers he was headed. After seeing
the officers were still following him, and increased
police presence, Plaintiff exited the highway, stopped
his car, and put his hands out the window. Although
Plaintiff has explained that he engaged in this conduct
simply to get away from the police, when assessing
qualified immunity, the Court must examine the facts
from the perspective of those knowable to the officer
at the time. Although a contrary conclusion might also
be reasonable, objectively viewing the facts, a
reasonable officer could conclude that Plaintiff’s
actions were very suspicious and perhaps even that
Plaintiff was ultimately surrendering. In sum,
although the events underlying this lawsuit were
understandably disturbing to Plaintiff, qualified
App. 33

immunity is available to Defendant on this claim as
well.
Approaching Plaintiff with a Gun Pointed at Him
As to whether Defendant is entitled to qualified
immunity on Plaintiff’s excessive force claim, “the
Fourth Amendment requires [a court] to ask, from the
perspective of a reasonable officer on the scene,
whether the officers’ actions are objectively
reasonable in light of the facts and circumstances
confronting them, without regard to their underlying
intent or motivation.” Franklin for Estate of Franklin
v. Peterson, 878 F.3d 631, 635 (8th Cir. 2017) (citation
omitted). The Court and the parties were unable to
identify Eighth Circuit precedent addressing the issue
directly of whether pointing a gun at an individual—
in and of itself—can violate the Fourth Amendment
under some circumstances, case law from other
circuits suggests that it can. See, e.g., Mlodzinski v.
Lewis, 648 F.3d 24, 38 (1st Cir. 2011); Robinson v.
Solano Cty., 278 F.3d 1007, 1013–15 (9th Cir. 2002)
(en banc).
However, even if this was “clearly established”
as a general rule, the rule’s contours were not so well
defined such that it would be clear to a reasonable
officer that Defendant’s conduct was unlawful in the
situation he confronted. Defendant knew Plaintiff had
a weapon on him, and even if Defendant did not see
Plaintiff’s movements in the front seat as Plaintiff was
driving, it would not have clear to a reasonable officer
that approaching Plaintiff with a gun pointed at him
was a violation of Plaintiff’s rights. See, e.g.,
Navarrete–Barron, 192 F.3d at 790. Thus, the Court
concludes, that viewing the evidence in the light most
App. 34

favorable to Plaintiff, Defendant is entitled to
qualified immunity on Plaintiff’s excessive force claim.
Remaining Claims
The Court will grant Defendant summary
judgment on Plaintiff’s remaining claims. As noted
above, the Court concludes that Defendant’s bodycam
recording establishes that Defendant did not search
the cargo area of Plaintiff’s truck at the exit ramp
when or as Plaintiff alleges. Plaintiff does not
challenge the accuracy of the recording, and, indeed,
it is the same recording on which Plaintiff relies for
establishing that Defendant’s approached Plaintiff
with a gun pointed at him.
The Court agrees with Defendant that even if
he took two bullets from Plaintiff’s gun, this would not
constitute a violation of Plaintiff’s substantive due
process rights.5 While Plaintiff claims that the theft
shocks the conscience because Defendant took the
bullets to frame Plaintiff with them, there is no
evidence of this being Defendant’s motive, and no
evidence to support the claim in general, especially in
light of Plaintiff’s statements at the exit ramp that he
did not know how many bullets were in his gun at the
time.
Lastly, as Defendant argues, Plaintiff has
presented insufficient evidence to support his Equal
Protection or First Amendment claims. Defendant’s
statement at the rest area, “don’t play the race card
Although it remains unclear whether Plaintiff is asserting a
property or liberty substantive due process claim, his opposition
brief appears to discuss a liberty interest. ECF No. 52 at 26.
5

App. 35

with me,” even if said in an angry tone, does not
provide sufficient evidentiary support to proceed with
this claim. See Johnson v. Crooks, 326 F.3d 995, 999–
1000 (8th Cir. 2003) (holding that a police officer was
entitled to summary judgment on a claim that a Terry
stop was racially motivated, where the plaintiff
offered no evidence, other than her own personal
opinion, that the stop was racially motivated; such a
claim normally requires proof that similarly situated
individuals were not stopped); Ratliff v. City of
Shannon Hills, 52 F. Supp. 3d 904, 913 (E.D. Ark.
2014) (granting qualified immunity to officers on the
plaintiff’s Equal Protection claim that she was
arrested because of her race, due to lack of evidence
that similarly-situated people were not stopped or
arrested). The First Amendment claim is even more
deficient in evidence. Thus, Defendant is entitled to
summary judgment on these three remaining claims.
CONCLUSION
Accordingly,
IT IS HEREBY ORDERED that motion of
Defendant Austin Clark for summary judgment is
GRANTED.

App. 36

APPENDIX C, DENIAL OF REHEARING
United States Court of Appeals
For the Eighth Circuit
___________________________
No. 18-1324
___________________________

GREGORY CLARK,
Plaintiff – Appellant,
v.

AUSTIN CLARK, DEPUTY,
in his individual capacity only,
Defendant – Appellee.
____________
Appeal from United States District Court
for the Eastern District of Missouri - St. Louis
____________
JUDGE ORDER: Denying petition for en banc
rehearing filed by Appellant Gregory Clark. The
petition for panel rehearing is also denied. Judges
Gruender did not participate in the consideration or
decision of this matter.
July 16, 2019

App. 37

